Michael C. O’Malley
CUYAHOGA COUNTY PROSECUTOR
October 13, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Application to Extend Time to Respond to Petition for Writ of Certiorari
in Cedric Jeffries v. Ohio, Case No. 20-5784

Dear Mr. Harris:
Pursuant to Rule 30.4, the Office of the Cuyahoga County Prosecutor respectfully
requests a 30-day extension of time in which to respond to the Petition for Writ of
Certiorari. This extension would move the response date from Monday, October 26, 2020,
to Wednesday, November 25, 2020.
Counsel seeks this extension because of a heavy caseload in matters before the
Supreme Court of Ohio and the Eighth District Court of Appeals for the State of Ohio. This
brief delay will not prejudice any party.
Thank you in advance for your consideration of this request.
Sincerely,
Michael C. O’Malley
Cuyahoga County Prosecutor
/s/ Katherine E. Mullin______
Katherine E. Mullin
Assistant Prosecuting Attorney
Counsel for Appellee
cc: Jeffrey M. Gamso, Petitioner’s Counsel

OFFICE OF THE PROSECUTING ATTORNEY
The Justice Center • Courts Tower • 1200 Ontario Street • Cleveland, Ohio 44113
(216) 443-7800 • Fax (216) 443-7601

